NO.

3tt tjje
6upreme Court of tbe ttiteb *tea;
ZOE SPENCER,

Petitioner,
v.
VIRGINIA STATE UNIVERSITY and KEITH T. MILLER,

Respondents.

FILED
JUN 18 2019

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

OFFICE OF THE CLERK
SUPREME COURT, U.S.

PETITION FOR WRIT OF CERTIORARI

DR. ZOE SPENCER

PETITIONER PRO SE
. 4107 OVERRIDGE DR.
CHESTER, VA 23831
(240) 351-9528
DR.ZOESPENCERP,GMAIL.COM
JUNE 28, 2019
SUPREME COURT PRESS

•

(888) 958-5705

•

BOSTON, MASSACHUSETTS

1

QUESTIONS PRESENTED
The United States Courts of Appeals diverge on
whether and under what circumstances prior salary
may constitute "any other factor other than sex" under
the fourth "catch all" exception of the Equal Pay Act
of 1963, 29 U.S.C. § 206(d)(1) and, correspondingly,
under the Bennett Amendment § 703(h) to Title VII
of the Civil Rights Act of 1964, 42 U.S.C. § 2000e-2
(a)(1). Despite this divergence, nearly all circuits that
allow wage differentials, based upon the prior salary
exception, adhere to this Court's precedent that salary
differentials be related to bona fide job evaluation
systems. See, Corning Glass Works v. Brennan, 417
U.S. 188, 201, 94 S.Ct. 2223 (1974). In the Fourth
Circuit's opinion below, "prior service" or rather the
prior salary equation, as "a factor other than sex,"
upon which the opinion relied, was not based upon a
bona fide job evaluation system Id.; and thus, defied
this Court's authority in Corning and exacerbated
the entrenched circuit split in a manner that prospectively undermines the legislative intent of the
Equal Pay Act.
In furtherance of resolving the "prior salary
question" presented to this Court in a recent petition
for a writ of certiorari, Yovino v. Rizo, 586 U.S.
(2019) per curiam, and addressing the Fourth Circuit's
impingement upon the Seventh Amendment, the questions presented are:
Is prior salary a factor other than sex? If so:
Whether the Equal Pay Act intends prior salary,
as a "catchall exception," to be excluded from bona

n
11

fide job related systems and the other three statutory
exceptions.
3. Whether the Petitioner's Seventh Amendment
right to a jury trial was violated when the Fourth
Circuit misapprehended summary judgment standards
in light of Supreme Court precedent.

111

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
TABLE OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

2

INTRODUCTION

3

STATEMENT OF THE CASE

6

Statutory Background

6

Factual & Procedural Background

10

REASONS FOR GRANTING THE PETITION

17

THE FOURTH CIRCUIT'S OPINION BELOW
DISREGARDS CORNING AND REMOVES PRIOR
SALARY, AS A CATCHALL EXCEPTION, FROM
THE LEGISLATIVE INTENT OF THE EQUAL PAY
ACT
18
•
THE COURT SHOULD RESOLVE THE AMBIGUITY
IN THE STATUTORY INTERPRETATION OF THE
CATCHALL EXCEPTION AND THE CIRCUIT
CONFLICT ON PRIOR SALARY AS AN AFFIRMATIVE DEFENSE
24
A. The Statutory Interpretation of the
Catchall Exception Impacts the Circuit
Conflict on the Prior Salary Defense
24

iv
TABLE OF CONTENTS — Continued
Page
B. This Case Is a Worthy Vehicle for
Resolving the Circuit Conflict
30
III. THE FOURTH CIRCUIT'S DECISION IS ERRONEOUS
34
CONCLUSION

39

V

TABLE OF CONTENTS — Continued
Page
APPENDIX TABLE OF CONTENTS
Opinion of the Fourth Circuit
(March 18, 2019)
Memorandum Opinion of District Court of
Virginia (January 30, 2018)

la
16a

Order of the Fourth Circuit Denying Petition for
Rehearing (April 15, 2019)
56a
Deposition of Joyce Moody Edwards Ph.D
Relevant Excerpts (September 1, 2017)

57a

Deposition of B. Robert Kreiser Ph.D
Relevant Excerpts (August 29, 2017)

70a

Deposition of Weldon Hill Ph.D
Relevant Excerpts (August 17, 2017)

72a

Deposition of Cortez Dial
Relevant Excerpts (August 11, 2017)

84a

Deposition of Michael Shackleford,
Relevant Excerpts (August 10, 2017)

87a

Deposition of Zoe Spencer
Relevant Excerpts (August 8, 2017)

100a

Deposition of Terone Green
Relevant Excerpts (August 9, 2017)

135a

rTh
vi
TABLE OF AUTHORITIES
Page
CASES
A. H Phillips. Inc. v. Walling
324 U.S. 490 (1945)
22
Adams v. University of North Carolina—
Wilmington, 640 F.3d 550 (4th Cir. 2011)
36
Aldrich v. Randolph Cent. School Dist.,
963 F.2d 520 (2d Cir. 1992)
26, 32
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986)
38
Bazemore v. Friday,
478 U.S. 385, 106 S.Ct. 3000,
92 L.Ed.2d 315 (1986)
36
Beck-Wilson v. Principi;
441 F.3d 353 (6th Cir. 2006)
26
Bickerstaff v. Vassar College,
196 F.3d 435 (2d Cir. 1999)
36
Caminetti v. United States,
242 U.S. 471 (1917)
20
Corning Glass Works v. Brennan,
417 U.S. 188, 94 S.Ct. 2223 (1974)
passim
Daubert v. Merrell Dow Pharmaceuticals, Inc ,
509 U.S. 579 (1993)
34, 36
DeJarnette v. Corning Inc.,
133 F.3d 293 (4th Cir. 1998)
23
EEOC v. Maryland Insurance Admin.,
879 F.3d 114 (4th Cir. 2018)
passim

vii
TABLE OF AUTHORITIES—Continued
Page
Glenn v. General Motors Corp.,
841 F.2d 1567 (11th Cir. 1988)

26, 31, 32

Herster v. Bd. Of Supervisors of Louisiana
State Univ., 887 F.3d 177 (5th Cir. 2018)

36

Irby v. Bittick,
44 F.3d 949 (11th Cir. 1995)

26, 31

Kouba v. Allstate Insurance Co.,
691 F.2d 873 (9th Cir. 1982)

25, 31

Kumar v. Bd. of Trustees, University of Mass,
774 F.2d 1 (1st Cir. 1985)
Lauderdale v. Ill. Dep't of Hum. Servs.,
876 F.3d 904 (7th Cir. 2017)

36
27, 33

Lavin-Mceleney v. Marist College,
239 F.3d 476 (2d Cir. 2001)

36

Mickelson v. NY Life Ins. Co.,
460 F.3d 1304 (10th Cir. 2006)

23

Reeves v. Sanderson Plumbing Products, Inc.,
530 U.S. 133 (2000)

38

Riser v. QEP Energy, Inc.,
776 F.3d at 1199 (10th Cir. 2003)

26

Siler-Khodr v. The University of Texas Health
Science Center San Antonio et. al.,
261 F.3d 542 (2001)
25, 31
Stanziale v. Jargowsky,
200 F.3d 101 (3d Cir. 2000)
23
Taylor v. White,
321 F.3d 710 (8th Cir. 2003)
27, 33

vi"
TABLE OF AUTHORITIES—Continued
Page

Tolan v. Cotton, supra,
134 S.Ct. 1861 (2014)
Univ. of Pa. v. EEOC,
493 U.S. 182 (1990)
Virginia v. Tennessee,
148 U.S. 503 (1823)
Wright v. West,
505 U.S. 277 (1995)
Yovino v. Rizo,
586 U.S.
(2019)
Zahorik v. Cornell Univ.,
729 F.2d 85 (2d Cir. 1984)
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. VII

38
21, 30, 36
20
38
i, 24, 25
36

i, ii, 2, 28, 38

STATUTES
28 U.S.C. § 1254(1)
29 U.S.C. § 203
29 U.S.C. § 206(d)(1)
42 U.S.C. § 1981(a)
42 U.S.C. § 2000e-2(a)(1)
Md. Code, State Pers. & Pens. § 2-601

1
6, 7
passim
6
passim
26

ix
TABLE OF AUTHORITIES—Continued
Page
JUDICIAL RULES
Fed. R. Civ. P. 10

34

PUBLICATIONS
EEOC Compliance Manual No. 915.003, § 10IV(E) (Dec. 5, 2000)
Pub.L. 88-38, § 2(a) (1), 77 Stat. 56 (1963)
Pub.L. 88-38, § 2(b) [417 U.S. 206]

32
9
9

OTHER AUTHORITIES
https://www.aauw.org/2018/08/01/i-am-worthmore-zoe-spencer-on-fighting-racism-andsexism-in-academia/
National War Labor Board,
https://www.jstor.org/stable/3309286?
read-now=1&seq=1#page_scan_tab_
contents

9

7

National Women's Law Center,
https://nwlc.orgiblog/equal-pay-historyfight-continues/
Salary History Bans.
https://www.hrdive.com/news/salaryhistory-ban-states-list/516662/

29

The Rehnquist Courts Canons of Statutory
Construction
http://www.ncsl.org/documents/lsss/2013PD
S/Rehnquist_Court_Canons_citations.pff

19

6

1

PETITION FOR WRIT OF CERTIORARI
Dr. Zoe Spencer respectfully petitions for a writ
of certiorari to review the judgment of the United
States Court of Appeals for the Fourth Circuit.

OPINIONS BELOW
The Fourth Circuit's amended panel decision
(March 26, 2018) is reproduced at Pet.App.la. The
district court's opinion (January 30, 2018) is reproduced at Pet.App.16a. The Fourth Circuit's denial of
rehearing or rehearing en banc (April 15, 2019) is
reproduced at Pet.App.56a.

JURISDICTION
The Fourth Circuit denied Spencer's petition for
rehearing and rehearing en banc on April 15, 2018
(Pet.App.56a). This Court has jurisdiction under 28
U.S.C. § 1254(1).

n
2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend. VII
The Seventh Amendment provides:
In Suits at common law, where the value in controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried
by a jury, shall be otherwise re-examined in any
Court of the United States, than according to the
rules of the common law.
29 U.S.C. § 206(d)
The Equal Pay Act, 29 U.S.C. § 206(d), provides:
(d) Prohibition of sex discrimination (1) No employer having employees subject to any provisions
of this section shall discriminate . . . between
employees on the basis of sex by paying wages to
employees in such establishment at a rate less
than the rate at which he pays wages to employees
of the opposite sex in such establishment for equal
work on jobs the performance of which requires
equal skill, effort, and responsibility, and which
are performed under similar working conditions,
except where such payment is made pursuant to
(i) a seniority system; (ii) a merit system; (iii) a
system which measures earnings by quantity or
quality of production; or (iv) a differential based
on any other factor other than sex: Provided,
That an employer who is paying a wage rate
differential in violation of this subsection shall

(Th

3

not, in order to comply with the provisions of this
subsection, reduce the wage rate of any employee.
42 U.S.C. § 2000e-2(a)(1)
Title VII of the Civil Rights Act 1964, 42 U.S.C.
§ 2000e-2(a)(1), provides:
It shall be an unlawful employment practice for
an employer-(1) . . . to discriminate against any
individual with respect to his compensation, terms,
conditions, or privileges of employment, because of
such individual's . . . sex.

INTRODUCTION
In July 2014, Virginia State University (VSU)
hired two terminated non-academic male Administrators from VSU, who were not tenured and had
no experience in the professoriate, to the rank of
Associate Professor. In setting the males' salaries for
their new positions, then Provost, Weldon Hill, a
male, simply reduced the males' prior salaries from
the twelve months they were contractually obligated
to work as Administrators to the nine months they
would be contractually obligated to work as Associate
Professors (9/12ths prior salary equation). (Pet.App.8a).
This formula established starting salaries of
$119,738.00 and $105,446.00 per year for each male,
which created a salary disparity of $49,698.00 and
$35,406.00 between Spencer, a tenured Professor with
four years vested at the Associate Professor rank,
who was earning $70,040.00 per year, and the newly
hired men. (Pet.App.2a).

(em

4

Upon learning of the new entry level salaries of
the lesser qualified males, Spencer sent an email to
President Keith Miller, also a male, Provost Hill, and
the VSU Administration requesting a salary increase
to that of the new hires based on her seniority, superior
qualifications, and merit as a tenured professor.
When the Administration failed to respond, she sent
a follow up email complaining that the salary differential, and the University's failure to increase her
salary to that of the males, would constitute wage
discrimination on the basis of sex in violation of the
Equal Pay Act. Less than a month after her complaint,
Provost Hill denied her request, which prompted this
action.
Dr. Zoe Spencer brought this suit under the Equal
Pay Act and Title VII alleging wage discrimination
and retaliation on the basis of sex. The district
court dismissed on summary judgment. The Court of
Appeals for the Fourth Circuit affirmed. In the panel's
sole reliance upon the "University's explanation,"
that "while Spencer asserts that the difference in pay
was due to her sex . . . Shackleford and Dials' jobs
differed from Spencer's and, as former administrators,
their pay was set at a prorated portion of their previous salaries," the Fourth Circuit concluded that she
failed to establish Shackleford and Dial as "appropriate
comparators" and "unrebutted evidence shows that
the University based Shackleford's and Dial's higher
pay on their prior service as University administrators,
not their sex." (Pet.App.2a).
In relying upon a mere mathematical calculation
of a previous salary to affirm a prior salary defense,
based on deference given to "prior service" that was

(Th

5

unrelated to the job/work of Associate Professor, the
Fourth Circuit untethered "prior salary" from the
other three clear statutory exceptions and defied the
Act's intent that "factors other than sex" be related to
bona fide job evaluation plans. See Corning, 417 U.S.
at 201. In such, the Fourth Circuit created a precedent
that expands the legislative intent of the catchall
provision, and diminishes the employer's burden of
showing that the proffered explanation for the wage
differential is justified by a bona fide job evaluation
system. Id. The opinion below contravenes Corning,
exacerbates the circuit split, and oversteps its own
precedent in EEOC v. Maryland Insurance Admin., 879
F.3d 114 (4th Cir. 2018).
The deeply entrenched circuit conflict on the
prior salary exception requires this Court's attention.
Given the conflict between the Fourth Circuit's ruling
and this Court, its sister circuits, the intra-circuit
conflict, and the pressing national issue that the
prior salary question presents, this case is a worthy
vehicle to address it.
The Supreme Court should grant certiorari to
provide supreme authority on whether prior salary
may be "a factor other than sex," and; if so, to provide
authority and guidance on the standard that must guide
the lower courts' reliance upon a prior salary defense
in order to establish consistency between the circuits
and preserve the congressional intent of the EPA. It
should also use certiorari to correct the Fourth Circuit's
misapprehension of summary judgment standards and
allow Spencer's case to proceed to a jury trial.

n
6

STATEMENT OF THE CASE
A. Statutory Background
The history of patriarchy and gender roles in
America is fundamental to the ongoing issue of gender
equity in the workforce. In 1848, when the Women's
Suffrage Movement convened in Seneca Falls, depending on the binary intersection of race and gender,
women were either being systematically excluded from
the workforce or systematically forced to provide free
labor under institutional enslavement. While the Civil
Rights Act of 1866, provided that "all persons within
the jurisdiction of the United States shall have the
same right in every State and Territory to make and
enforce contracts . . . as is enjoyed by white citizens"
42 U.S.C. § 1981(a), both Black women and White
women were still relegated to the gendered exclusion
that persisted during that era.
In 1870, the House narrowly passed an amendment to an appropriations bill prohibiting gender discrimination in the compensation of federal clerksl,
but that amendment did not address the broader issue
of gender wage discrimination across industries. In
1938, Congress passed the Fair Labor Standards Act,
29 U.S.C. § 203 (FLSA) which was pivotal to addressing
working conditions and wages in general. But, the
FLSA did not address the specific issue of gender
equity.
1 National Women's Law Center, https://nwlc.org/blog/equal-payhistory-fight-continues/ (Last Visited 5/28/19)

7

In 1942, the National War Labor Board unsuccessfully "endorsed policies to provide equal pay for
women who were replacing male workers at war."2
But gendered biases and stereotypes about women's
roles, ability, productivity, place, and worth in society
continued to underscore the conditions for salary
inequity in the workforce.
This was the national issue Congress sought to
address when it convened the Eighty-Eighth Congressional Session to enact the Equal Pay Act of 1963
as an amendment to the FLSA (1938). Therein, Congress recognized the historic " . . . fact that the wage
structure of many segments of American industry has
been based on an ancient but outmoded belief that a
man, because of his role in society, should be paid
more than a woman even though his duties are the
same." S. Rep. No. 176, 88th Cong., 1st Sess., 1 (1963)
[417 U.S. at 195]. This court affirmed:
Congress' purpose in enacting the Equal
Pay Act was to remedy what was perceived
to be a serious and endemic problem of
employment discrimination in private
industry. The solution adopted was quite
simple in principle: to require that "equal
work will be rewarded by equal wages." Id.
As "originally introduced," the Equal Pay bills
considered in the House and Senate "required equal
pay for 'equal work on jobs the performance of which
requires equal skills"' and included "only two excep2 National War Labor Board, https://www.jstor.org/stable/3309286?
read-now=l&seq=1#page_scan_tab_contents (Last Visited 5/23/
2019).

8

tions—for differentials 'made pursuant to a seniority
or merit increase system which does not discriminate
on the basis of sex."' S. 882, 88th Cong. § 4 (1963); S.
910, 88th Cong. § 4(a) (1963); H.R. 3861, 88th Cong.
§ 4(a) (1963); H.R. 4269, 88th Cong. § 4(a) (1963).
[417 U.S. 1991. However, in response to industry representatives arguing that the Act was too restrictive,
Congress expanded the statutory language, but not
in a way that stripped the Act from its legislative
intent. The Equal Pay Act, 29 U.S.C. § 206(d)(1) thus
sets forth:
No employer having employees subject to
any provisions of this section shall discriminate . . . between employees on the
basis of sex by paying wages to employees in
such establishment at a rate less than the
rate at which he pays wages to employees of
the opposite sex in such establishment for
equal work on jobs the performance of which
requires equal skill, effort, and responsibility,
and which are performed under similar
working conditions, except where such payment is made pursuant to (i) a seniority
system; (ii) a merit system; (iii) a system
which measures earnings by quantity or
quality of production; or (iv) a differential
based on any other factor other than sex.
To achieve the equal pay objective with consideration and parity:
In response to evidence of the many families
dependent on the income of working women,
Congress included in the Act's statement of
purpose a finding that 'the existence . . . of

9

wage differentials based on sex . . . depresses
wages and living standards for employees
necessary for their health and efficiency.'
Pub.L. 88-38, § 2(a) (1), 77 Stat. 56 (1963).
And Congress declared it to be the policy of
the Act to correct this condition. § 2(b) [417
U.S. 206].
Congress thus established:
That an employer who is paying a wage rate
differential in violation of this subsection
shall not, in order to comply with the
provisions of this subsection, reduce the
wage rate of any employee. 29 U.S.C. 206
(d)(1) [417 U.S. 188, 207]. The purpose of
this proviso was to ensure that to remedy
violations of the Act, `[t]he lower wage rate
must be increased to the level of the higher.'
H.R. Rep. No. 309, supra, at 3. Id.
While the Act addressed discrimination on the
basis of sex, the intersection of race and gender still
precluded Black women's protection under the Act,
until the Civil Rights Act of 1964 provided the racial
pathway for a gendered inclusion and protection under
both the EPA and Title VII. More than fifty five years
later, women are still challenging the "endemic problem" of wage discrimination on the basis of sex,3 at
the intersection of race, ethnicity, and class.
3 According to the American Association of University Women
(AAUW), in 2017, women were paid an average of 80 percent of
what White, non-Hispanic men were paid. This rate decreased
based on race and ethnicity. https://www.aauw.org/2018/08/01/iam-worth-more-zoe-spencer-on-fighting-racism-and-sexism-inacademia/ (Last Visited 6/7/19)

10

B. Factual & Procedural Background
1. Dr. Zoe Spencer, an African American female,
received her Ph.D. in Sociology from Howard University
in 2005. She was an Instructor and an Assistant
Professor at Cheyney University from 2005-2008. She
was hired in the Department of Sociology and Criminal
Justice at the rank of Assistant Professor at Virginia
State University in 2008. Between 2008 and 2017,
Spencer achieved the rank of Associate Professor in
2010, tenure in 2013, and advanced to the distinguished
rank of Professor in 2017, with stellar ratings, through
the University's promotion and tenure review process.
(Pet.App.114a, 133a-134a). Spencer has conducted
research, published peer reviewed articles, chapters,
and manuscripts, served on numerous University
committees including serving as Faculty Senate Chair.
(Pet.App.129a-130a). She has served on dissertation
and thesis committees both internally and externally,
engaged in community service, recruitment activities,
presented at numerous professional conferences, and
is the highest performing professor in her Department.
Spencer has consistently received teaching and service
awards, outstanding teaching evaluations, and her
courses regularly surpass capacity. (Pet.App.131a135a; 63a-64a, 67a).
2. VSU is a teaching institution (Pet.App.73a)
and binding uniform University policies established
in the Virginia State University Faculty Handbook
(Faculty Handbook and Handbook) apply to all VSU
collegiate faculty regardless of rank, discipline, or
department, and include: the criteria and requirements
for promotion and tenure, hiring, salaries, and an
established standard faculty workload and core work

(Th

11

responsibilities. (Pet.App.88a). The handbook establishes teaching, research/scholarly/creative work, and
service as the sole bases for evaluations. The handbook
establishes that salaries shall be set based on the
average salaries of peers at that rank. (Pet.App.58a60a).
In April 2012, as Chair of the Faculty Senate,
Spencer presented a "Gender Equity Task Force
(GETF) snapshot" to former President Keith Miller
and his cabinet, including then Provost Weldon Hill,
that complained of gender equity in pay and a male
dominated Administration of which Hill and the two
male comparators were a part. (Pet.App.143a; 81a-82a;
64a-65a).
Provost Hill disagreed that gender was a factor
in the pay equity issue and began a pattern of
retaliation against Spencer that elevated in November
2012, when Spencer shared the "GETF Snapshot" with
members of the Board of Visitors (BOV), which included
delaying Spencer's overload pay, referring to her as a
bitch, and threatening to "play the end game" because
Spencer went public about gender equity issues and
retaliation. (Pet.App.144a-147a; 82a-83a).
In July 2014, two non-academic and untenured
Administrators, Cortez Dial and Michael Shackleford's
contracts were terminated by the BOV. (Pet.App.136a138a). At the request of President Miller, Hill "hired"
the two males as Associate Professors, "perhaps as
an act of friendship," (Pet.App.77a-78a) and appointed
them to Departments (Education and Mass Communication) that had no relationship to their degrees,
experience, or qualifications. (Pet.App.80a-81a). Dial
did not possess a Ph.D. in Mass Communication and

(Th

12

Shackleford did not possess an Ed.D. in Pk-12 Administration. Neither male had any full time experience
teaching at any rank, at any college or University
(Pet.App.121a; 138a-139a); nor had they produced any
research, publications, or service in the teaching area
or otherwise. (Pet.App.114a-119a; 85a-86a).
Hill set their salaries based on 9/12ths of their
prior twelve month salaries, which established the
starting salaries of $119,738.00 and $105,446.00
respectively. (Pet.App.73a-74a; 94a-97a). Their standard
contracts (EWP's) stipulated standard work responsibilities applicable to all collegiate faculty at VSU
(Pet.App.96a; 68a), and the hiring form (A-21), signed
by Hill, specified the work responsibilities as "teaching/
teaching and research only." (Pet.App.129a, 131a).
The males did not go through the standard hiring
process, or tenure and promotion review to achieve
the rank of Associate Professor (Pet.App.85a; 95a),
and their academic qualifications for teaching were
not vetted by the University, as they had none.
(Pet.App.148a-149a).
6. According to the Handbook, Administrators are
not entitled to de facto tenure or transfer to faculty
ranks and serve at will. (Pet.App.76a). There are
no retreat rights, unless an Administrator formerly
achieved tenure. (Pet.App.110a; 77a-78a) And, there
is no 9/12ths prior salary policy for tenured or untenured Administrators. Hill testified that there was no
such policy, and in all other instances established
starting salaries based on the average of peers at
that rank. (Pet.App.59a; 78a-79a). Despite this knowledge, Hill advised the Board of Visitors (BOV) that
both the practice of transferring the men to faculty

13

ranks and the 9/12th's calculation was policy. (Pet.
App.140a-143a). Hill testified that he applied this
practice to other Administrators; however, VSU's
former BOV member, Terone Green, testified that
during his tenure on the Board of Visitors, seven
Administrators' contracts were terminated, including
one woman, and no other Administrator, besides
Shackleford and Dial, were given that favor. (Pet.
App.150a-151a). Dr. Joyce Edwards, Chair of Sociology and Criminal Justice testified the same. (Pet.App.
57a-58a).
In July 2014, Spencer sent a letter to Administration requesting a salary increase to that of the
two males based on her superior experience, qualifications, and merit as an Associate Professor. (Pet.
App.65a-68a). Initially Provost Hill stated he would
accept the recommendation of Spencer's Chair, Dr.
Edwards, a female, and the Dean of the School of
Liberal Arts and Education, Andrew Kanu, a male. Dr.
Edwards approved Spencer's request for a salary
adjustment and testified that when she discussed
Spencer's request with Dean Kanu, he informed her
that the Provost asked him not to support her.
(Pet.App.68a-69a). Spencer later complained that the
salary disparity constituted wage discrimination on
the basis of sex under the EPA. (Pet.App.114a-119a).
The Provost ultimately denied Spencer's request for a
salary increase. (Pet.App.69a).
Each semester, Spencer taught more classes,
course preparations, and an extraordinarily higher
student load than her comparators. (Pet.App.100a-107a;
92a-93a). Even after she achieved the rank of full
Professor, with stellar peer evaluations, she continued

14

to earn significantly less than the men. Spencer,
Shackleford, and Edwards' testimonies all affirmed a
common core of tasks for teaching. (Pet.App.121a-126a;
61a-64a; 88a-92a).
Before filing this case, Spencer hired Dr. Robert Kreiser, an expert in higher education policy with
over 30 years of experience working with the American
Association of University Professors (AAUP), and Joseph
Rosenberg an expert economist. The Kreiser report
found that VSU's placing non-academic and untenured
Administrators in faculty positions at the rank of
Associate professor earning 9/12ths of their prior
unrelated salaries did not comport with national
practices in higher education and substantially violated
the University's own hiring, promotion, and salary
policies, and SACS credentialing guidelines. (Pet.App.
70a-71a).
The Rosenberg report found with a confidence
interval of 97.5% that, Dial and Shackleford were
overpaid by $36,469 and $47,846 per year greater than
would be expected based on the objective characteristics
for relative peers, and the expected characteristics
relative to the standards of the EPA. (Pet.App.7a-8a).
On December 19, 2016, Spencer filed a complaint for wage discrimination and retaliation under
the Equal Pay Act and Title VII in the U.S. District
Court for the Eastern District of Virginia in Richmond.
On January 30, 2018, the District Court
issued a Memorandum Opinion setting forth its reasoning for granting summary judgment. The District
Court held that Shackleford and Dial were not proper
comparators because, they were former administrators,
each had different departmental responsibilities and

(Th

15

their "experience outside of academia" included long
careers in military leadership. The District Court
held that the "Plaintiff does not suggest that she
has served in the administration of a university or
that she has an extensive relevant professional background outside academia;" in its conclusion that "in
contrast to Dial and Shackleford, Plaintiff never held
an administrative position, and therefore Defendants
could not have set her salary as a percentage of a
prior administrative salary. Therefore, because the
alleged comparators' salaries were set using their
prior salary . . . and there is no indication that the
practice was used to discriminate, the Court finds
that Defendants have successfully established a credible 'factor other than sex' justification." (Pet.App.35a,
38a-40a).
On March 18, 2019, the Fourth Circuit affirmed summary judgment and on March 26, 2019,
the Fourth Circuit filed its amended opinion.
The Fourth Circuit first concluded that
"though Spencer establishes a pay disparity, she fails
to present evidence that creates a genuine issue of
material fact that Shackleford and Dial are appropriate
comparators." The Fourth Circuit analysis of the equal
work requirement relied upon hypothetical distinctions
based on a "market force" analysis in the Engineering
Department, which was not at issue; dismissed handbook policy and the common core of tasks as vague; and,
exalted the alleged additional duties of Spencer's
comparators, in concluding that Spencer had not met
her prima facie burden of establishing the equal work
requirement (Pet.App.4a-6a). Ultimately, however,
the panel held that even if Spencer met her prima

16

facie burden, there was "no dispute that the wage
difference at issue resulted from the University setting
Shackleford's and Dial's pay at 75% of their previous
salaries as administrators . . . Even if the University
erroneously applied its 9/12ths practice to overpay
Shackleford and Dial, such an imprudent decision would
still serve as a non-sex-based explanation for the pay
disparity."(Pet.App .9a-10a).
On March 29, 2019, Spencer filed a pro se
petition for rehearing and rehearing en banc. In the
petition for rehearing and rehearing en banc, Spencer
raised the issue that the 9/12ths prior salary rule
contravened this Court's precedent in Corning and
subverted stare decisis; the opinion did not rely
upon a proper application of circuit and sister circuit
precedent to the facts in its conclusion on equal work;
and the opinion contravened the legislative intent of
the Act.
On April 15, 2019, the Fourth Circuit issued
a one page order denying petition for rehearing and
rehearing en banc.

17

4re
REASONS FOR GRANTING THE PETITION
The statutory interpretation of the fourth catchall
exception of the Equal Pay Act, 29 U.S.C. § 206(d)(1)(iv)
"any other factor other than sex"—provides the foundation for prior salary as an affirmative defense
under both the EPA and Title WI. The ambiguity and
generality of the statutory language of the catchall
exception has created conflict and divergence between
the circuits on whether prior salary constitutes a
factor other than sex, either at all, along with other
factors, or alone; and, on whether the Act intends the
catchall exception to be related to, or independent of,
the other three exceptions.
In holding that an employer can establish a prior
salary defense based upon a mathematical calculation
of a "previous salary" from an unrelated job (Pet.App.
2a), the Fourth Circuit strayed wildly from this Court's
clear guidance that wage differentials be based
upon "bona fide job evaluation plans" in order to "fall
"outside of the purview of the Act," Corning, 417 U.S.
at 201, and abandoned each of its sister circuits'
precedent. Absent correction, the panel's opinion
affirming a prior salary defense for a wage differential
in the position of Associate Professor, that is based
solely upon the males' unrelated non-academic "prior
service" as Administrators, destabilizes the value and
integrity of the academic profession and undermines
the congressional intent of the Act by upholding the
"ancient but outmoded belief that a man, because of
his role in society, should be paid more than a woman

18

even though his duties are the same," Corning 417
U.S. at 195.
This case-which ultimately turns on the question
of prior salary-provides an exceptional opportunity to
address the question and the conflict it has posed. It
also affords this Court the opportunity to correct the
Fourth Circuit's gross misapprehension of summary
judgment standards.
I.

THE FOURTH CIRCUIT'S OPINION BELOW DISREGARDS
CORNING AND REMOVES PRIOR SALARY, AS A
CATCHALL EXCEPTION, FROM THE LEGISLATIVE
INTENT OF THE EQUAL PAY ACT.

The Fourth Circuit's opinion below conflicts with
the clear guidance of this Court in Corning in a way
that removes prior salary, as a catchall exception,
from the legislative intent of the Equal Pay Act. The
aim of the Act is clear, provide equal pay for equal
work on jobs that require "equal skill, effort, and
responsibility, and which are performed under similar
working conditions." Id. The Act establishes four
exceptions for wage differentials. The first three are
clear statutory exceptions that are based on a "seniority
system, merit system, or a system that measures the
quantity and quality of production." Id.
The use of the term "system" is not happenstance.
The statutory language of the Act reflects Congress'
intent . . . "to use these terms to incorporate into the
new federal ACt the well-defined and well-accepted
principles of job evaluation so as to ensure that wage
differentials based upon bona fide job evaluation
plans would be outside of the purview of the Act."
Corning, 417 U.S. at 201.

19

It is the ambiguity in the fourth catchall exception
that has created conflict and inconsistency in the courts'
statutory interpretation of the provision. When
referenced and cited out of context, as the opinion below
has (Pet.App.8a-9a), the fourth catchall provision, "or
any other factor other than sex" may, on its face, be
interpreted to infer "any other factor" in general,
which would support prior salary alone as "a factor
other than sex." However, if the catchall exception is
read so broadly, as the Seventh, Eighth, and Fourth
Circuits have, any alleged "neutral" "prior salary"
justification that does not directly reference sex could
serve as a "factor other than sex," which would render
the Act useless in its intent. Corning establishes:
"The Equal Pay Act is broadly remedial, and it should
be construed and applied so as to fulfill the underlying
purposes which Congress sought to achieve. If . . . the
work performed by women . . . was equal to that
performed by men . . . the company became obligated
to pay the women the same base wage as their male
counterparts." Corning, 417 U.S. at 208.
The panel's reading of the catchall exception in
isolation, then, is inapposite. The Rehnquist Court's
Canon's of Statutory Construction require a statute
to be read as a whole and the court to "harmonize the
provisions of the statute, including those that appear
to conflict . . . The statutory exceptions are to be read
narrowly." Thus, the canons of noscitur a sociis and
ejusdem generis are apposite to the statutory
construction of the provision.4 See Caminetti v. United
4 The Rehnquist Courts Canons of Statutory Construction
http://www.ncsl.org/documents/lsss/2013PDS/Rehnquist_Court_
Canons_citations.pdf (Last Visited 6/11/19).

n
20

States, 242 U.S. 471 (1917), ("When the language of a
statute is plain . . . there is no occasion . . . for judicial
construction; the language must then be accepted by
the courts as the sole evidence of the ultimate legislative
intent, and the courts have no function but to apply
and enforce the statute accordingly.")
The legislative intent of the Act makes clear that
a "factor other than sex" was intended to be based on
a "well defined" "bona fide job evaluation" system.
Corning at 417 U.S. at 201. Applying the maxim of
noscitur a sociis would, in that way, require prior
salary to be closely related to the preceding statutory
exceptions. See, Virginia v. Tennessee, 148 U.S. 503,
519 (1823).
Interpreting the "catchall provision" within the
context of the legislative history of the Act also
provides guidance. As Corning buttressed, as originally
introduced, the Equal Pay bill only provided "two
exceptions—for differentials "made pursuant to a
seniority or merit increase system . . . " Id. As the bill
expanded to include a general exception, the Senate
Committee report provided illustrative examples of
what the general exception would cover: "seniority
systems . . . based on tenure," "merit system[s]," "piecework system[s] which measure either the quantity or
quality of production or performance," and "[w]ithout
question," "other valid classification programs. . . . " See
Corning, 417 U.S. at 201 quoting S. Rep. No. 88-176,
at 4 (1963). These examples were not untethered
from the three clear exceptions.
Contrarily, in both its decision on the prior salary
exception and the equal work requirement, the Fourth
Circuit opinion below (Pet.App.6a) contravenes Corning

(Th

21

in its disregard for authority on the "established and
applied bona fide job rating system" that absolutely
governs "legitimate academic judgments" of professors'
"intellectual/creative" work and potential for hiring and
salary decisions, promotion and tenure, and merit
increases in higher education nationally-the promotion and tenure criteria/review.5 See, Univ. of Pa. v.
EEOC, 493 U.S. 182, 190, 193, 199 (1990). In contradiction, the panel erroneously affronts Spencer's tenure
(seniority) and her progressive promotions to full
Professor (merit) (Pet.App.2a); and repudiates her
peer reviewed excellence in teaching and her "better or
more work" in research and publishing (Pet.App.4a-6a),
in favor of paying deference to the males' unrelated
and undefined "prior service" as administrators. The
panel then gives deference to their unsupported additional duties to undermine Spencer's years of amassed
productivity in the professoriate, in affirming the
University's defense for setting and maintaining the
unrelated prior salary advantage of her lesser/ unqualified male comparators.
The panel further abandons Corning and the
legislative intent of the EPA in its holding that:
Here, there is no dispute that the wage difference at issue resulted from the University
5 Recognizing § 3 of the Equal Employment Opportunity Act of
1972, 86 Stat. 103. "This extension of Title VII was Congress'
considered response to the widespread and compelling problem
of invidious discrimination in educational institutions. The House
Report focused specifically on discrimination in higher education,
including the lack of access for women and minorities to higher
ranking (i.e., tenured) academic positions." See H.R. Rep. No. 92238, pp. 19-20 (1971).

22
setting Shackleford's and Dial's pay at 75%
of their previous salaries as administrators
. . . Even if the University erroneously applied
its 9/12ths practice to overpay Shackleford
and Dial, such an imprudent decision would
still serve as a non-sex-based explanation
for the pay disparity. (Pet.App.9a-10a).
First, since the males' qualifications do not bear
on their seniority, merit, or productivity as Associate
Professors, Corning would preclude the panel's blanket
reliance upon an imprudent decision, made by males,
to overpay two males, based upon an erroneous
application of a "prior salary practice," as a "non sex
based explanation" under the Act; because, the prior
salary explanation does not so convincingly eliminate
sex as a motivating factor in the "imprudent decision"
to overpay the men. Md. Ins. Admin., 879 F.3d at
123. Moreover, Corning would preclude the panel's
reliance upon a simple mathematical calculation of an
unrelated "previous salary" as an affirmative defense,
because the University does not so compellingly prove
that the calculation was based on a "bona fide job
related system."
The panel's blanket deference underestimates
Coming's instruction that the burden is on the employer
to show that a wage differential is justified under the
statutory exceptions of the Act. (Emphasis added).
Corning, 417 U.S at 197 citing A. H Phillips. Inc. v.
Walling, 324 U.S. 490, 493 (1945), (other citations
omitted). Thus, while the 9/12ths formula explains
how the wage disparity was formed; it equally fails to
explain how it is justified under the Act.

n
23

The panel's erroneous opinion subverted its own
precedent in Md. Ins. Admin., which correctly held:
. . . This statutory language requires that
an employer submit evidence from which
a reasonable factfinder could conclude not
simply that the employer's proffered reasons
could explain the wage disparity, but that
the proffered reasons do in fact explain the
wage disparity. 879 F.3d at 121, citing Stanziale, 200 F.3d at 107-08; Mickelson, 460
F.3d at 1312.
This Court also reified the legislative intent of
the EPA in Gunther when it affirmed: "the courts and
administrative agencies are not permitted to 'substitute
their judgment for the judgment of the employer
. . . who [has] established and applied a bona fide job
rating system,' so long as it does not discriminate on
the basis of sex." 109 Cong. Rec. 929 (1963) (statement of Rep. Goodell, principal exponent of the Act),
452 U.S. 161 (1981) [452 U. S. at 171]. In this manner,
Gunther is not distinguishable from Corning in its
adherence to the statutory language of the EPA,
"established and applied . . . bona fide . . . systems."
The Fourth Circuit also snubs Gunther, quoting
DeJarnette, in holding, "we do not sit as a 'superpersonnel department weighing the prudence of
employment decisions' made by the defendants."
(Pet.App.10a). It misjudges its role. Under GuntheIs
authority, the University's "erroneous and purposeful
misapplication" of a "practice" (Pet.App.12a) would
not stand as "an employer that has established and
applied a bona fide job rating system," and is thus

24

not outside of the purview of the Act or the court's
scrutiny.
The Fourth Circuit's contrary conclusion is
irreconcilable with the plain import of this Court's
decision in Corning and does not stand against the
legislative intent of the Act. A correct reading of
Corning and Gunther, and adherence to its own precedent in Md. Ins. Admin., would have precluded the
Fourth Circuit's reliance upon the "9/12ths prior
salary practice" as a "factor other than sex."
II. THE COURT SHOULD RESOLVE THE AMBIGUITY IN
THE STATUTORY INTERPRETATION OF THE CATCHALL
EXCEPTION AND THE CIRCUIT CONFLICT ON PRIOR
SALARY AS AN AFFIRMATIVE DEFENSE.
A. The Statutory Interpretation of the Catchall
Exception Impacts the Circuit Conflict on the
Prior Salary Defense.
While the Courts of Appeals were already critically
divided on the prior salary defense, the Fourth Circuit's
opinion below overreached the dichotomous boundaries
of all of its sister circuits. The Fourth Circuit then
denied en banc review, exacerbating an already
ingrained circuit split with its two opposing opinions
and its refusal to recognize the disunion the opinion
below created with its own precedent.
Jim Yovino recently petitioned this court to establish authority and resolve circuit conflict on the question of prior salary in Yovino v. Rizo, 586 U.S.
(2019) per curiam. This Court granted certiorari, but
reversed Rizo v. Yovino, 887 F.3d 453 (9th Cir. 2018)
(en banc) on its second question, leaving the question

25

of prior salary unresolved. Before this Court overturned
Rizo, re-establishing Kouba's precedence however,
the late Honorable Judge Reinhardt authored an
eloquent en banc opinion that must not be discarded.
Therein, he applied a lengthy analysis of the canons
of noscitur a sociis and ejusdem generis to challenge
the validity of the prior salary defense. Rizo, 887
F.3d at 461-463. The en banc opinion held: "To accept
the County's argument would be to perpetuate rather
than eliminate the pervasive discrimination at which
the Act was aimed," and thus, more determinatively
joined the Fifth Circuit in its conclusion that: "prior
salary, whether considered alone or with other factors,
is not job related and thus does not fall within an
exception to the Act that allows employers to pay
disparate wages." Id. at 460. Before Rizo, as it stands
now, the Fifth Circuit was the only circuit that
definitively held that prior salary cannot be an
affirmative defense, especially when there is evidence
of "pretext and the explanation is easily rebutted."
Siler-Khodr v. The University of Texas Health Science
Center San Antonio et. al., 261 F.3d 542, 549 (2001).
The Second, Sixth, Tenth, and now again, the
Ninth Circuits, allow a prior salary defense as a part
of a mixed motive standard. For example, Kouba, allows
a prior salary defense when the prior salary is
related to a legitimate job related purpose; specifically, "when the employer uses other predictors of
the new employee's performance, attributes less significance to prior salary once an employee has proven
himself, and whether the employer relies more heavily
on salary when the prior job resembles the job of
sales agent." Kouba v. Allstate Insurance Co., 691
F.2d 873, 878 (9th Cir. 1982). This decision aligns

26

with the Second, Sixth, and Tenth Circuits which also
establish that prior salary can be an affirmative
defense when: "the differential in pay is rooted in legitimate business related differences, such as work
responsibilities and qualifications for the particular
positions at issue," see Aldrich v. Randolph Cent.
School Dist., 963 F.2d 520, 525 (2d Cir. 1992), and
"when in using a prior salary defense, 'sex is nowhere
a factor."' See, Beck- Wilson v. Principi, 441 F.3d 353,
365, 366 (6th Cir. 2006); See also Riser v. QEP
Energy, Inc., 776 F.3d at 1199 (10th Cir. 2003).
The Eleventh Circuit is more cautious in its
agreement with its sister circuits. For example, in its
long standing precedent in Glenn, the Eleventh
Circuit held that the "so-called" salary "policy" was
not a policy, but a "practice" and the prior salary
defense was meritless because the "factor other than
sex" exception applies only when the disparity results
from "unique characteristics of the same job." (Emphasis added). Glenn v. General Motors Corp., 841
F.2d 1567, 1570 (11th Cir. 1988); See also Irby v.
Bittick, 44 F.3d 949, 955 (11th Cir. 1995). The Fourth
Circuit's ruling in EEOC v. Md. Ins. Admin., concurs
with Glenn in establishing that even the use of the
State's "standard. salary schedule" Md. Code, State
Pers. & Pens. § 2-601 does not constitute a "factor other
than sex," in setting initial salaries for lateral transfers based on prior step and grade, because while the
schedule may be "facially neutral, MIA exercises
discretion each time it assigns a new hire to a
specific step and salary range based on its review of
the hire's qualifications and experience." EEOC v.
Md. Ins. Admin., 879 F.3d 117,123 (4th Cir. 2018).

27

Conversely, the Seventh Circuit's broad reading
of the catchall exception is unyielding in affirming
that prior salary may be an affirmative defense without
any further justification, while the Eighth Circuit
even considers prior salaries from unrelated jobs in
setting new salaries. For example, in Lauderdale v.
Ill. Dep't of Hum. Servs., 876 F.3d 904, 908 (7th Cir.
2017), the Seventh Circuit held, prior salary is a
factor other than sex "even if the Department did not
strictly follow the pay plan in determining what
increase was appropriate." In Taylor v. White, 321
F.3d 710, 717 (8th Cir. 2003), the Eighth Circuit
applied "salary retention policies," even when those
policies "may perpetuate preexisting salary disparities
by basing employees' current salary on prior salaries
for other positions." Id. at 718. It held that a "neutral
salary retention policy" is a factor-other-than-sex
defense, regardless of the "wisdom or reasonableness"
of the employer's decision. Id. at 719.
The Fourth Circuit's opinion below holds that a
simple mathematical calculation of the prior salaries
alone, is a "non sex based explanation," even if the
University "erroneously or purposely misapplied" the
practice. (Pet.App.6a and 12a).
The inconsistency between the circuits has created
an adverse impact on the way in which employment
practices shift across jurisdictions and dichotomize
employer versus employee interests. The Seventh,
Eighth, and now the Fourth Circuits' even broader
reading of the "catchall exception" gives wide latitude
to the discretion of employers to assert a prior salary
defense without a "bona fide" job-related justification,
which dangerously impinges the intent of the Act.

28

While employers advocate for the autonomy to rely
upon prior salary without the courts' intervention,
employers fail to concede that prior salary is generally
inextricably linked to the qualifications, seniority/ experience, merit, skill, and the potential for production
that an employee brings to a new position. In that
instance, prior salary is tethered to the other statutory
exceptions and need not be given a legal autonomy to
stand alone.
Prior salary, either alone, or along with a faulty
standard for making a determination on whether
prior salary may stand as an affirmative defense, as
a matter of law, absolutely threatens an employee's
protection under the Act and the Seventh Amendment,
by limiting her ability to survive at the motion to dismiss and summary judgment stages when a defendant
merely proffers a "prior salary" defense without bearing
any burden of showing that the justification was related
to a bona fide job related system. A lingering history
of wage disparity, racialized gender and gender role
stereotypes, and patriarchal biases that still influence
some courts' reluctance to strictly adhere to the statutory language and legislative intent of the EPA illustrate how case law might dilute the original intent of
the Act, over time, without supreme guidance.
The unaddressed circuit conflict has consequently
prompted state legislators to address the issue of
prior salary and the discriminatory impact that it has
on women in the workforce particularly. As of May
2019, sixteen states have bans on employers requesting
prior salary information. Two have banned the pro-

(Th

29

hibition of such.6 And, the Third Circuit is addressing
the constitutionality of the ban.7 This creates, yet,
another level of conflict and divide on the issue.
The Fourth Circuit's opinion below provides a
textbook example of the potential discriminatory impact
that faulty case law, on "prior salary practices" that
undermine the legislative intent of the EPA, might
have on this nations producers—particularly working
women—who do not have the financial and political
resources to command this Court's attention to prove
they were aggrieved by pre-textual prior salary
defenses, or the stamina to litigate to this end, in this
highly adversarial climate, despite the incredibly
taxing odds.
The issue of prior salary is a grave matter of
public, judicial, and legislative interest that may
reach a tipping point if the statutory language of
the catchall exception remains ambiguous, and the
statutory interpretation of the exception relative to
prior salary remains inconsistent. This Court must
be the supreme authority that guides the law of the
land on the issue of prior salary.

6 Salary History Bans. https://www.hrdive.com/news/salary-historyban-states-list/516662/ (Last Visited 6/18/19).
7 The Baton Passes Back to the East Coast: Prior Salary Ban
Passed in Delaware and Philadelphia Law Suit Challenging Prior
Salary Ban Back On. https://www.seyfarth.com/publications/
OMM062317-LE (Last Visited 6/18/19).

30

B. This Case Is a Worthy Vehicle for Resolving
the Circuit Conflict.
"As Congress has recognized, the costs associated
with racial and sexual discrimination in institutions
of higher learning are very substantial. Few would
deny that ferreting out this kind of invidious discrimination is a great, if not compelling, governmental
interest." Univ. of Pa. v. EEOC, 493 U.S. 193 (1990).
It is undisputed that Spencer is a full Professor
with years of experience in teaching, and "more or
better work" in research, and publishing (Pet.App.2a
and 8a). It is undisputed that, in July 2014, Shackleford
and Dial received employment contracts for the job of
Associate Professor at starting salaries of $119,738.00
and $105,446.00 per year, paling Spencer's salary of
$70,040.00. (Pet.App.2a). It is undisputed that neither
male brought previous experience as a collegiate faculty
member at any rank. It is undisputed that while
Spencer agrees that a 9/12ths formula was used to
establish their starting salaries (Pet.App.2a), Spencer
disputes the existence of a 9/12ths prior salary policy
and the validity of its application in setting the
salaries of her two comparators (Pet.App.10a).
The panel opinion below affirms "there is no dispute that the wage difference at issue resulted from
the University setting Shackleford's and Dial's pay at
75% of their previous salaries." (Pet.App.8a). This
undisputed fact alone renders the panel's ruling on
equal work and "appropriate comparators" irrelevant
because the males had performed no prior work as
Associate Professors before their starting salaries were
set, and the salaries remained disparate even after
Spencer continued to outperform them in advancing

31

to the rank of full Professor (Pet.App.2a). Accordingly,
answering the question of whether prior salary alone
constitutes a factor other than sex would answer
Spencer's question of liability.
First, the decision below starkly contrasts the
Fifth Circuit in Siler-Khodr because the Fifth Circuit
expressly rejects prior salary as an affirmative defense
under the EPA and Title VII, especially when there
is "evidence of pretext and the prior salary defense is
easily rebutted." 261 F.3d. 549. The Fourth Circuits
decision affirming summary judgment based on the
prior salary exception would not stand in the Fifth
Circuit.
The Eleventh Circuit in Glenn also citing the
Ninth Circuit in Kouba, established, "this court has
not held that prior salary can never be used by an
employer to establish pay, just that such a justification
cannot solely carry the affirmative defense. See Glenn,
841 F.2d at 1571 n.9 ("Kouba Iv. Allstate Ins. Co.,
691 F.2d 873 (9th Cir. 1982) ] . . . would permit use of
prior salary where the prior job resembled the sales
agent position and where Allstate relied on other
available predictors." See also, Irby ("[i]f prior salary
alone were a justification, the exception would swallow
up the rule and inequality in pay among genders
would be perpetuated." 830 F.Supp. at 636.).
The Second, Sixth, and Tenth Circuits agree and
allow a prior salary defense as long as it is coupled
with other job related factors, which include: predictors
of the comparators performance, qualifications and
work responsibilities for the position in question
(emphasis added), and on "whether the employer relies
more heavily on salary when the prior job resembles

32

the job . . . " in question. See, e.g. Aldrich, 963 F.2d
520, 525. See also, Price, 856 F.2d at 1506. Thus, the
language in the Second, Sixth, Ninth, Tenth, and
Eleventh Circuits are consistent in the requirement
that prior salary be related to qualifications for "the
same job," "the position in question," or "unique characteristics of the same job" in order to qualify as an
affirmative defense. See e.g., Glenn v. General Motors
Corp., 841 F.2d 1567, 1570 (11th Cir. 1988).
The panel opinion below ignores this sister circuit
precedent in erroneously holding that the unrelated
former roles entitled the males to higher salaries and
precluded them from being appropriate comparators
in the "position in question." (Pet.App.2a). In so doing,
the panel disregarded the established guideline that,
"the important comparison in determining whether the
"equal work" requirement is met "is the comparison
of the jobs, not the people performing the jobs." See
EEOC Compliance Manual No. 915.003, § 10-IV(E)
(Dec. 5; 2000). Consequently, the Fourth Circuit critically erred in laboring over an improper comparison.
In ruling on whether the wage differential at
issue was justified under the Act, the comparison
before the court was never that of a lowly professor to
exalted former administrators; but rather a comparison
of an accomplished tenured professor to entry level
professors, who had yet to perform any professorial
work to compare to hers, but were hired to the professoriate at advanced ranks with starting salary advantages that paled hers. Thus, the Fourth Circuit's decision would not stand in its sister circuits either.
Further, the opinion below and Md. Ins. Admin.,
are not distinguishable, which render them incon-

33

gruous. Md. Ins. Admin. sides with the Eleventh
Circuit in its holding that even though "MIA uses a
facially gender-neutral compensation system, MIA still
must present evidence that the job-related distinctions
underlying the salary plan, including prior state
employment, in fact motivated MIA to place the
claimants and the comparators on different steps of
the pay scale at different starting salaries." 879 F 3d.
at 123. The panel's opinion below holds, "but even if
the University erroneously applied its 9/12ths practice
to overpay Shackleford and Dial, such an imprudent
decision would still serve as a non-sex-based explanation for the pay disparity." If the Fourth Circuit
rejected the reliance upon a bona fide state salary
system to set initial salaries in MIA, the circuit's
reliance upon an erroneously applied "practice" in this
instance severely undercuts its own precedent.
While the language of the Seventh and Eighth
Circuits' decisions in Lauderdale and Taylor may
appear to support the Fourth Circuit's decision below
(Pet.App.10a), the elements are distinguishable. Despite
its broad reading of the exception, Lauderdale still
relies upon the same or similarity of previous positions
and an established pay policy "whether they followed
it or not." 876 F.3d 908. Taylor also relies upon an
established "salary retention policy" even in its lack
of consideration for whether the job qualifications
from prior jobs were related to the position in question.
321 F.3d 710. The Fourth Circuit's decision below
relies upon neither.
In the opinion below, the Fourth Circuit singlehandedly subverted the doctrine of stare decisis; created
an intra-circuit conflict; and now joins the entrenched

34

circuit split at two opposing ends of the divide,
further exacerbating the Courts of Appeals' rift on
this pressing national issue. This case begs for an
exercise of this Court's supervisory powers under
Rule 10 (a) and (c).
III. THE FOURTH CIRCUIT'S DECISION IS ERRONEOUS.
First, the Fourth Circuit opinion (Pet.App.10a)
erroneously holds that the provision of the EPA
requires, "that the wage disparity not be based on a
factor other than sex . . . Spencer's claim fails . . . " To
the contrary, if the wage disparity is not based on a
factor other than sex, it is impermissible, and she
prevails. In a precedential case law, such a critical
error, that rewrites the statutory provision, and is
not merely dictum, is grave.
Moreover, contrary to the Fourth Circuits opinion
that the Petitioner did not raise genuine issues of
material fact, she disputed many key facts and
presented voluminous evidence that the panel simply
ignored and discarded. "Relevant evidence" is defined
as that which has "any tendency to make the existence
of any fact that is of consequence to the determination
of the action more probable or less probable than it
would be without the evidence." Daubert, 509 U.S.
579, 587 (1993).
First, the panel misapprehends that while neither
party disputes that the 9/12ths salary equation was
used to establish the salaries, there is dispute on
whether the 9/12ths practice was ever a policy or a
practice, and whether "the act of friendship" (Pet.
App.77a-78a) between men was the motivating factor
in applying it. The opinion completely rejects the

35

genuine dispute Spencer raises in stating, "according
to her, the University's historical practice only applied
to administrators who were previously tenured faculty."
(Pet.App.13a). It ignored the Handbook, the testimony of Green, Kreiser, and Hill himself that affirms
that no 9/12ths policy existed, even though Hill misrepresented its existence to the BOV. (Pet.App.76a78a; 70a-71a; 140a-143a).
Further, the panel completely disregarded the
clear policies established ' in the Faculty Handbook
that define the qualifications for Associate Professors
and the workload for all collegiate faculty at VSU
regardless of rank, discipline, or department in its
holding that Spencer failed to provide evidence of the
equal work requirement as defined in the standard
contract (EWP). (Pet.App.7a-8a, 12a; 96a; 68a). The
panel then trampled over the factual dispute over
whether Spencer's "more or better work in research
and publishing" and "teaching more undergraduate
students" outweighed her comparators alleged additional duties (Pet.App.7a); disregarded the testimonies
of Spencer and her comparators on the vast common
core of tasks for teaching; and discarded the testimony
of Green and Edwards who affirmed that they believed
Spencer was far more qualified and entitled to her
salary increase request based on her superior experience and merit as a tenured professor. (Pet.App.
151a; 65a-68a).
In so doing, the panel failed to consider, that,
even in adverse decisions, the vast national case law
in higher education establishes tenure, teaching, research/publications/scholarly activities,. and service
as the sole bases for the work, merit/tenure, and

n
36

salaries of professors. See e.g., Univ. of Pa. v. EEOC,
493 U.S. 182 (1990); See also, e.g., Kumar v. Bd. of
Trustees, University of Mass, 774 F.2d 1 (1st Cir. 1985);
Bickerstaff v. Vassar College, 196 F.3d 435, 456 (2d
Cir. 1999); Adams v. University of North Carolina—
Wilmington, 640 F.3d 550, (4th Cir. 2011); Herster v.
Bd. Of Supervisors of Louisiana State Univ., 887
F.3d 177, 185 (5th Cir. 2018); and Zahorik v. Cornell
Univ., 729 F.2d 85, 93 (2d Cir. 1984). In its determination that Spencer's research and publications did not
arise to the alleged additional duties of her comparators
then, the opinion below destructively establishes new
and contradictory case law in higher education.
The panel also errs in concluding that Spencer's
regression analysis must prove systematic discrimination in order to be credible. (Pet.App.7a-9a). Spencer
is only required to prove that there is a wage disparity between her and a similarly situated comparator,
which, in addition to proving pretext, was the sole
intent of her expert analysis. Md. Ins. Admin., 879
F.3d at 122. Consequently, the panel discarded the
testimony of Rosenberg which ignored both this Court's
instruction in Bazemore v. Friday, 478 U.S. 385, 400, •
106 S.Ct. 3000, 92 L.Ed.2d 315 (1986) (citation omitted); and Daubert, 509 U.S. 579, 588 (1993), and its
sister circuit precedent on the sufficiency of a regression analysis in proving discrimination and pretext.
See, Lavin-Mceleney v. Marist College, 239 F.3d 476,
480-481 (2d Cir. 2001).
If the Fourth Circuit had adhered to this Court's
direction, it could not have affirmed summary judgment, as a matter of law, on either her EPA or Title
VII claims. If the evidence is construed in Spencer's

37

favor, as it must be, a jury could easily find that the
9/12ths prior salary policy defense is pretext and the
sex of the decision makers and comparators motivated
the decision to overpay the men (Pet.App.77a-78a). It
could find that the comparators former roles bore no
relationship to the position of Associate Professor and
Spencer's superior qualifications, experience, merit, and
productivity entitled her to the requested salary
increase. (Pet.App.114a-119a). A jury could also easily
find that the additional responsibilities that the
panel relied upon (Pet.App.7a) do not explain a
$35,000.00 and $49,000.00 salary disparity.
Moreover, a reasonable jury could find VSU's own
BOV member, Green, a disinterested witness, and in
such find that his testimony regarding Hills statements,
"fuck her," she can wait to get paid," directly after
she shared the GETF report with the BOV, which
caused her considerable financial strain, and Hills
comment, "I should have never hired the bitch,"
provided credible evidence of a pattern of sex-based
retaliatory animus toward Spencer for her gender
advocacy. (Pet.App.140a-143a). A reasonable jury could
then infer that Edward's testimony that Hill asked
Dean Kanu not to support Spencer's salary increase
request was credible in establishing evidence of an
intentional discriminatory and retaliatory intent.
(Pet.App.68a-69a).
In reaching its conclusion that Spencer had not
met her prima facie burden of establishing equal work,
the Fourth Circuit confused prima facie and affirmative
defense standards. See Corning 417 U.S. 197, see
also Md. Ins. Admin., 879 F.3d at 122., and remarkably
ignored this Courts long standing precedent that "our

38

holding that the clear-and-convincing standard of
proof should be taken into account in ruling on
summary judgment motions does not denigrate the role
of the jury . . . Credibility determinations, the weighing
of the evidence, and the drawing of legitimate inferences
from the facts are jury functions, not those of a judge,"
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 252
(1986). The panel clearly failed to adhere to this
Court's clear instruction that "the evidence of the
non-movant is to be believed, and all justifiable
inferences are to be drawn in [her] favor," Tolan v.
Cotton, supra, 134 S.Ct. 1861 (2014).
Moreover, by disregarding this Court's authority
which clearly establishes that "it is permissible for
the trier of fact to infer the ultimate fact of discrimination from the falsity of the employer's explanation,"
Reeves v. Sanderson Plumbing Products, Inc., 530 U.S.
133, 147 (2000), see also, e.g., Wright v. West, 505
U.S. 277, 296, the Fourth circuit's opinion affirming
summary judgment on Spencer's EPA and Title VII
claims, based on its blanket acceptance of the
University's 9/12ths prior salary explanation (Pet.
App.2a, 12a), infringed upon the jury's function "to
infer the ultimate fact of discrimination from the
truth or falsity of the employer's explanation" and
violated Spencer's Seventh Amendment right.

n

39

(1M

4*.
CONCLUSION
This Court should grant the petition for a writ of
certiorari.

Respectfully submitted,
DR. ZOE SPENCER
PETITIONER PRO SE
4107 OVERRDIGE DR.
CHESTER, VA 23831
(240) 351-9528
DR.ZOESPENCER@GMAIL.COM
JUNE 28, 2019

